Case: 20-10667

Document: 00515768626

Page: 1

Date Filed: 03/05/2021

fHmteti States Court of Uppeate
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

No. 20-10667

FILED
March 5, 2021

Jayson Neil Sparks,

Lyle W. Cayce
Clerk

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department ofCriminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CV-265

ORDER:
Jayson Neil Sparks, Texas prisoner # 2081577, moves for a certificate
of appealability (COA) to appeal the district court’s denial and dismissal of
his 28 U.S.C. § 2254 application challenging his conviction for continuous
sexual abuse of a child. In his COA motion, he contends that (i) there was
insufficient evidence to support his conviction because the victim testified
that Sparks’s actions were accidental and, therefore, the prosecution failed
to prove “criminal intent” and (ii) his indictment was defective because it
was signed by the district attorney and not the foreperson of the grand jury.

Case: 20-10667

Document: 00515768626

Page: 2

Date Filed: 03/05/2021

No. 20-10667

A COA may issue “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). An
applicant satisfies this standard “by demonstrating that jurists of reason
could disagree with the district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
The district court dismissed the vast majority of Sparks’s claims
(including the claim described in (i), above) on the grounds that they were
either unexhausted or procedurally defaulted. The district court denied two
of his claims on the merits. In his COA motion, Sparks does not challenge,
much less address, the district court’s dismissal of his claims on procedural
grounds or the denial of his two claims on the merits. Accordingly, he has
abandoned any appellate challenge he might have raised to the district court’s
decision in this regard. See Hughes v. Johnson, 191 F.3d 607, 613 (5th Cir.
1999); see also Matchett v. Dretke, 380 F.3d 844, 848 (5th Cir. 2004).
As to Sparks’s defective-indictment claim (described in (ii), above),
he did not raise this claim in his § 2254 application or seek to amend his
application to include the claim. He did raise the claim in his reply to the
respondent’s answer to his application. Regardless, he has failed to show that
jurists of reason could conclude that his defective-indictment claim deserves
encouragement to proceed further. See Miller-El, 537 U.S. at 327.
Accordingly, Sparks’s motion for a COA is DENIED.

C*

STUART KYLE DUNCAN
United States Circuit Judge

2

Case 4:19-cv-00265-A Document 25 Filed 06/15/20 Page 1 of 17 PageiD 1390
u.s. ouitrh:t court
NORTHKRN DISTRICT OKTBXAS

RLBD
M 1 5 2020

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
C'l.HUK,

JAYSON NEIL SPARKS,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal
Justice, Correctional
Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

»y-

I'HSTIUCT COURT
• •*«r. •‘r*n. «'•. .,/•

e*.vis-;**

J VptiiY
V W. *tt\

No. 4:19-CV-265-A

MEMORANDUM OPINION
and
ORDER
This is a petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2254 filed by petitioner, Jayson Neil Sparks, a state
prisoner incarcerated in the Correctional Institutions Division
of the Texas Department of Criminal Justice (TDCJ), against Lorie
Davis, director of TDCJ, respondent. After having considered the
pleadings, state court records, and relief sought by petitioner,
the court has concluded that the petition should be dismissed in
part and denied in part.
I.

PROCEDURAL HISTORY

Petitioner was indicted in Tarrant County, Texas, Case No.
1403502D, with one count of continuous sexual abuse of A.S.
(count one), a child younger than 14 years of age.

(Clerk's R.

6.) The indictment also included additional counts alleging
lesser-included offenses of aggravated sexual assault of a child
(counts two and three) and indecency with a child by contact

Case 4:l9-cv-00265-A Document 25 Filed 06/15/20 Page 2 of 17 PagelD139l
(count four).

(Id.) A jury found petitioner guilty on count one

and assessed his punishment at 30 years' imprisonment in
absentia.

(Id. at 143.) The appellate court affirmed the trial

court's judgment and the Texas Court of Criminal Appeals refused
petitioner's petition for discretionary review.

(Docket Sheet 1-

2, doc. 14-2.) Petitioner also filed a state habeas-corpus
application challenging his conviction, which was denied by the
Texas Court of Criminal Appeals without written order on the
findings of the trial court.

(Action Taken, doc. 14-18.) This

federal habeas petition followed.
The state appellate court summarized the facts of the case
as follows:
A.S. lived with her biological Father
[petitioner], her Mother, her older sister C.S., and
her two younger siblings. One morning, while the rest
of the family was still asleep, [petitioner] instructed
then nine-year-old A.S. to come to a downstairs room.
A.S. did so, still wearing the pajama shorts that she
had slept in, and [petitioner] told her to "squat."
A.S. complied, and [petitioner] put his hand inside of
her shorts and inserted his finger into her vagina, or
as A.S. referred to it, her "hole." A.S. told
[petitioner] to stop, and after a few seconds, he
removed his hand and returned to bed. A.S. did not tell
anyone what had happened.
On another occasion, when Mother was away from
home one night, [petitioner] told then ten-year-old
A.S. to come upstairs to his bedroom and to lay down
with him, under the covers and in the dark. A.S.'s
youngest sibling joined them, but after she left to go
use the bathroom, [petitioner] put his hand under
A.S.'s underwear and inserted his finger into her
vagina for a few seconds. A.S. stayed in bed with
[petitioner] for the rest of the night and did not tell
anyone what had happened.

2

Case 4:l9-cv-00265-A Document 25 Filed 06/15/20 Page 3 of 17 PagelD 1392
When A.S. was eleven years old, she and the rest
of her family were watching a movie at home one night.
According to A.S., when Mother and A,S.'s siblings were
asleep, [petitioner] began to tickle A.S., including
along her inner thigh, and "accidentally touched [her]
hole" for a few seconds. [Petitioner] later
acknowledged that his thumb had actually entered A.S.'s
vagina.
A.S. told her grandmother what had happened when
[petitioner] was tickling her, A.S.'s grandmother spoke
to Mother, and authorities soon initiated an
investigation. CPS interviewed A.S., as did a forensic
interviewer at Alliance for Children, and a sexual
assault nurse examiner at Cook Children's Medical
Center examined A.S, who disclosed the three incidents
involving [petitioner], A.S., her Mother, and her
siblings moved out of the home; A.S. blamed herself for
what had happened and was hospitalized for attempting
to commit suicide; and [petitioner] was eventually
arrested after voluntarily giving an interview to a
detective on the case.
At trial, A.S. recalled a time when [petitioner]
once showed her a glass dildo and asked her if she knew
what it was. A.S. told [petitioner] that it was a sex
toy. A.S. also recalled that [petitioner] had shown her
and C.S. how to shave their pubic areas. According to
A.S., after they removed their "bottoms," [petitioner]
"demonstrated how to shave on [C.S.] first and then
went to [her]." C.S. also testified that [petitioner]
had shown her how to shave her pubic area, although she
recalled that she was alone with [petitioner] at the
time. According to the detective who interviewed
[petitioner], he told her that he had taught A.S. and
C.S. how to wash their private areas and that "he
watched them a few times to make sure they were
cleaning themselves right."
[Petitioner] denied penetrating A.S.'s vagina with
his finger in the downstairs room and in his bedroom,
and regarding the last incident that occurred during
the movie, he explained that his thumb had accidentally
entered A.S.'s vagina because as he was tickling her,
she was also moving and scooting all about.[Petitioner] admitted that in addition to wrestling or
roughhousing with his daughters, he played an "innocent
game" with A.S. in which he would poke the area around

3

Case4:19-cv-00265-A Document 25 Filed 06/15/20

Page 4 of 17 PagelD 1393

her breast and say, "Boob."
(Mem. Op. 2-4, doc. 14-3 (footnotes omitted).)
II.

ISSUES

Petitioner's grounds for relief are multifarious and are
construed as follows (all spelling, punctuation, or grammatical
errors in the quoted material is in the original):
(1)

(2)

the state did not meet its "burden of Proof —
reasonable doubt" because
(a)

the prosecutor used more "alleged evidence of acts
than there were total counts in the indictment"
and did not elect which acts "were to be assigned
to which count";

(b)

petitioner's interview with law enforcement was a
coercive custodial interrogation without being
afforded the Miranda warnings;

(c)

C.S.'s testimony was inadmissible under Texas Rule
of Evidence 403;

<d)

the "trial court erred in admitting the subject of
a sex toy," which should have been excluded under
Texas Rule of Evidence 403;

(e)

A.S.'s testimony proved twice that the
prosecution's "main charge against [petitioner]
was an accident"; and

(f)

evidence of the "shaving incident" was
inadmissible extraneous-offense evidence under
Texas Code of Criminal Procedure article 38.37 and
should have been excluded under Texas Rule of
Evidence 403;

the trial judge erred by
(a)

failing to sua sponte issue a limiting instruction
or declare a mistrial when the prosecutor
"referenced 'confession / « during opening argument;

(b)

failing to sua sponte issue a limiting instruction

4

Case 4:19-cv-00265-A Document 25 Filed 06/15/20 Page 5 of 17 PagelD 1394
or declare a mistrial "to the prosecutor
presenting more alleged acts than the indictment
supports" or make the prosecutor elect "which acts
tie to which counts";

(3)

(c)

allowing "evidence that was proven to be a
conflict of testimonies";

<d)

allowing "the subject of a sex toy to be admitted
after saying he couldn't prove who's it was & that
it didnt meet reasonable doubt":

(e)

failing to issue "limiting instructions striking
from the record or declaring a mistrial to the
prosecutors vicious, damaging & highly prejudicial
closing remarks";

(f)

failing to issue "limiting instructions striking
from the record or declaring a mistrial [to] the
prosecutors vicious, damaging & prejudicial
improper closing remarks" at sentencing;

(g)

allowing "a guilty conviction to proceed knowing
that the elements of 2 crimes hadnt been met";

(h)

failing to allow petitioner "the rite of
allocution which is a federally protected act";

the state engaged in prosecutorial misconduct by
(a)

referencing "confession {custodial interrogation)"
in opening argument;

(b)

stating an "opinion or belief of [petitioner]
being guilty in opening argument";

(c)

alleging "more acts happened than there were total
counts of the indictment ... to lead to a
possible greater offense' conviction";

(d)

stating an "opinion of [petitioner] being guilty
in closing argument, despite 2 counts being proven
false";

(e)

attacking petitioner's credibility, vouching for
the credibility of a witness, giving "opinion
statements of [petitioner's] character & mis­
stated facts that were presented in evidence";

5

Case 4:19-cv-00265-A Document 25 Filed 06/15/20 Page 6 of 17 PagelD 1395
(f)

<4)

making "damaging & desparaging remarks" about
petitioner, his character, and his credibility,
referencing multiple improper opinions, asking the
jury to "incapacitate [petitioner]" and to "keep
[petitioner] out of society," and calling
petitioner "a textbook predator & the biggest
narcissist you'll ever see in both closing
remarks";

he received ineffective assistance of counsel at
trial and on appeal because
(a)

trial counsel failed to object to the prosecutor's
reference to his "confession" or request a
limiting instruction or mistrial and failed to
object to prosecutor's "statement of opinion or
belief of [petitioner] being guilty" in opening
argument;

(b)

trial counsel failed to request a limiting
instruction or a mistrial regarding the
prosecutor's use of "more alleged acts than there
were total counts" in the indictment;

(c)

trial counsel failed to object or request a
limiting instruction or mistrial to the
prosecutor's highly improper and prejudicial
closing arguments at both trial and sentencing;

(d>

trial counsel failed to file a pretrial motion to
suppress petitioner's interrogation video; to give
a meaningful opening argument; to call any
exculpatory and known witnesses; to present a
meaningful defense theory; to cross-examine
witnesses in an effective manner; to "raise any
sort of reasonable doubt or innocence"; to "raise
the fact that the shaving was done for medical
necessity and present that as a defense"; to give
meaningful closing argument; to "bring up or
present [petitioner's] interrogation as not just a
formal interview but as a custodial
interrogation"; and to bring up the fact that
petitioner was arrested before a complaint or
indictment was filed; and

(e)

appellate counsel failed to raise "the items
[petitioner]v raised on appeal other than the 403
exclusion of C.S. testimony"; to communicate with

6

Case 4:l9-cv-00265-A Document 25 Filed 06/15/20 Page 7 of 17 PagelD1396
petitioner; and to send petitioner a copy of the
transcripts.
(Pet. 6-7, 11-16, doc. 1 (record citations omitted).1)
III.

RULE 5 STATEMENT

Respondent does not believe that the petition is successive
or untimely, however she believes that all but one of
petitioner's claims are unexhausted and/or procedurally barred.
(Resp't's Ans. 7-8, doc. 15.)
IV. EXHAUSTION AND PROCEDURAL DEFAULT
Respondent asserts that petitioner's grounds 1(a), 1(d)-(f),
2(a)-(b), 2(d)-(h), 3(b)-(d), 3(e), in part, 3(f), and 4(a)-(e)
are unexhausted and procedurally barred from the court's review
and should be dismissed.

(Id. at 12-16.) Petitioners seeking

habeas-corpus relief under § 2254 are required to exhaust all
claims in state court before requesting federal collateral
relief. 28 U.S.C. § 2254(b)(1); Fisher v. Texas, 169 F.3d 295,
302 (5th Cir. 1999). The exhaustion requirement is satisfied when
the substance of the federal habeas claim has been fairly
presented to the highest court of the state, in this case the
Texas Court of Criminal Appeals, on direct appeal or in state
post-conviction proceedings. O' Sullivan v. Boerckel, 526 U.S.
838, 842-48 (1999); Fisher, 169 F.3d at 302; Carter v. Estelle,
677 F.2d 427, 443 (5th Cir, 1982). The exhaustion requirement is

Because additional pages are attached to the form petition, the
pagination in the ECF header is used.
7

Case 4:l9-cv-00265-A Document 25 Filed 06/15/20 Page 8 of 17 PagelD 1397
"not satisfied if the petitioner presents new legal theories or
factual claims in his federal habeas petition." Reed v. Stephens,
739 F.3d 753, 780 {5th Cir. 2014)

(quoting Anderson v. Johnson,

338 F.3d 382, 386 {5th Cir. 2003)).
Having reviewed the state court records, the court agrees
that the designated grounds, except for ground 4(c), do not
sufficiently correspond with petitioner's claims raised on appeal
or in his state habeas application.

(App. Br. 2, doc. 14-5; SHR2

17-26.) Thus, the claims raised for the first time in this
federal petition are unexhausted for purposes § 2254(b)(1)(A).
Under the Texas abuse-of-the-writ doctrine, -however, petitioner
cannot now return to state court for purposes of exhausting the
claims. See Tex. Code Crim. Proc. Ann. art. 11.07, § 4 (West 2015).
The abuse-of-the-writ doctrine represents an adequate state
procedural bar to federal habeas review. See Nobles v. Johnson,
127 F.3d 409, 423 (5th Cir. 1997). Therefore, absent a showing of
cause and prejudice or a miscarriage of justice, such showing not
having been demonstrated, the designated grounds, save for ground
4(c), are unexhausted and procedurally barred from this court's
review.3
2 "SHR" refers to the record of petitioner'3 state habeas proceeding in
WR-09,311-01.

i

3A petitioner may overcome a procedural default by demonstrating either
cause and actual prejudice for the default or a showing that he is actually
innocent of the crime for which he stands convicted. See Sawyer v. Whitley,
505 U.S. 333, 338 (1992); Ylst v. Nunnemaker, 501 U.S. 797, 801-07 (1991);
Smith v, Johnson, 216 F.3d 521, 523-24 (5th Cir. 2000). Petitioner presents no

8

Case 4:19-cv-00265-A Document 25 Filed 06/15/20 Page 9 of 17 PagelD 1398
Respondent asserts that petitioner's grounds 1(b), 2(c),
3(a), and 3(e), in part, are also procedurally barred from the
court's review.

(Resp't's Answer 10-12, doc. 15.) Under the

procedural default doctrine, a federal court may not consider a
state prisoner's federal habeas claim when the last state court
to consider the claim expressly and unambiguously based its
denial of relief on an independent and adequate state procedural
default. See Coleman v.
Johnson v. Puckett,
169 F.3d at 300.

Thompson, 501 U.S. 722, 729,

176 F.3d 809, 823

In Texas,

(5th Cir.

(1991);

1999); Fisher,

record-based claims that could have

been raised on direct appeal, but were not, will not be
considered on state habeas review proceedings and are forfeited.
Ex parte Gardner, 959 S.W.2d 189,

199 (Tex. Crim. App. 1996). The

Fifth Circuit recognizes that this state rule is an adequate

"new reliable evidence—whether it be exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical physical evidence—that was not
presented at trial" to support an actual-innocence claim. Instead, he asserts
that his lack of exhaustion and procedural default of the claims should be
excused based on ineffective of assistance of trial and appellate counsel.
(Pet'r's Traverse 1-8, doc. 19.) However, petitioner's ineffective-assistanceof-appellate-counsel claims are themselves procedurally defaulted because he
did not raise the claims in his state habeas proceeding and "cannot furnish
the basis for cause and prejudice enabling federal review of the underlying
unexhausted habeas claims. See Hatten v. Quarterman, 570 F.3d 595, 605 (5th
Cir. 2009). Nor has he demonstrated that his ineffective-assistance-of-trial
counsel claims are "substantial." Martinez v. Ryan, 566 U.S. 1, 14 (2012). For
a claim to be "substantial," a "prisoner must demonstrate that the claim has
some merit." Id. Conversely, an "insubstantial" ineffective assistance claim
is one that "does not have any merit" or that is "wholly without factual
support." Id. at 15. Petitioner alleges a laundry list of errors by trial
counsel, without demonstrating how the alleged errors were constitutionally
deficient or any specific prejudice. Such conclusory allegations do not
support a claim(s) of ineffective assistance of counsel. Miller v. Johnson,
200 F.3d 274, 282 (5th Cir. 2000); Green v. Johnson, 160 F.3d 1029, 1042 <5th
Cir. 1998).

9

Case 4:19-cv-00265-A Document 25 Filed 06/15/20 Page 10 of 17 PagelD 1399
procedural bar to federal habeas review. Dorsey v. Quarterman,
494 F.3d 527, 532 {5th Cir. 2007); Brewer v. Quarterman, 466 F.3d
344, 347 (5th Cir. 2006).
Although raised in petitioner's state habeas application,
the state habeas court found that the claims could have been
raised on direct appeal, but were not, and thus were forfeited.
(SHR 69-74, doc. 14-20.) The state court clearly relied upon a
firmly established and regularly followed state procedural rule
to deny the claims grounds that, in turn, represents an adequate
state procedural bar to federal habeas review. Therefore, absent
a showing of cause and prejudice or a miscarriage of justice,
such showing not having been demonstrated, the designated grounds
are procedurally barred from the court's review. See supra note 2
and accompanying text.
Because all of petitioner's grounds, save for two, are
procedurally barred, the following discussion applies only to
grounds 1(e) and 4(c).
V. DISCUSSION
A § 2254 habeas petition is governed by the heightened
standard of review provided for in the Anti-Terrorism and
Effective Death Penalty Act (AEDPA). 28 U.S.C. § 2254. Under the
Act, a writ of habeas corpus should be granted only if a state
court arrives at a decision that is contrary to or an
unreasonable application of clearly established federal law as

10

Case 4:l9-cv-00265-A Document 25 Filed 06/15/20 Page 11 of 17 PagelDl400
established by the Supreme Court or that is based on an
unreasonable determination of the facts in light of the record
before the state court. 28 U.S.C. § 2254(d)(1)—(2); Harrington v.
Richter, 562 U.S. 86, 100 (2011). This standard is difficult to
meet and "stops short of imposing a complete bar on federal court
relitigation of claims already rejected in state proceedings."
Richter, 562 U.S. at 102.
Additionally, the statute requires that federal courts give
great deference to a state court's factual findings. Hill v.
Johnson, 210 F.3d 481, 485 (5th Cir. 2000). Section 2254(e)(1)
provides that a determination of a factual issue made by a state
court shall be presumed to be correct. A petitioner has the
burden of rebutting the presumption of correctness by clear and
convincing evidence. 28 U.S.C. § 2254(e)(1); Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003); Williams v. Taylor, 529 U.S.
362, 399 (2000).
Furthermore, when the Texas Court of Criminal Appeals, the
state's highest criminal court, denies relief without written
order, typically it is an adjudication on the merits, which is
likewise entitled to this presumption. Richter, 562 U.S. at 100;
Ex parte Torres, 943 S.W.2d 469, 472 (Tex. Crim. App. 1997). In
such a situation, a federal court "should 'look through' the
unexplained decision to the last related state-court decision
providing" particular reasons, both legal and factual, "presume

11

Case 4:19-cv-00265-A Document 25 Filed 06/15/20 . Page 12 of 17 PagelD 1401
that the unexplained decision adopted the same reasoning," and
give appropriate deference to that decision. Wilson v. Sellers,
138 S. Ct. 1188, 1192 (2018). If there is no related state-court
decision providing the court's reasoning, a federal court assumes
that the state court applied the proper clearly established
federal law to the facts of the case and then determines whether
its decision was contrary to or an objectively unreasonable
application of that law. 28 U.S.C.A. § 2254(d)(1); Virgil v.
Dretke, 446 F.3d 598, 604 (5th Cir. 2006).
Under ground 1(c), petitioner claims C.S.'s testimony
regarding the shaving incident was highly inflammatory and
prejudicial and was inadmissible under Texas Rule of Evidence
403.

(Pet. 11, doc. 1.) In the last reasoned state court decision

on the issue, the state appellate court addressed the claim as
follows:
[Petitioner] argues that the trial court abused
its discretion by admitting C.S.'s testimony that
[petitioner] shaved her pubic area. He contends that
its probative value was substantially outweighed by the
danger of unfair prejudice because "[i]t isn't evident
exactly what the testimony of [his] shaving lesson for
C.S. was meant to prove," the State's need for the
evidence was "minuscule," and the evidence "merely
served to instill a prejudice or bias in the minds of
the jury against [petitioner]'s unique method of
parenting."
Although generally admissible, relevant evidence
may nevertheless be excluded under rule 403 if its
probative value is substantially outweighed by the
danger of unfair prejudice. "Unfair prejudice does not
arise from the mere fact that evidence injures a
party's case," because "[v]irtually all evidence that a

12

Case 4:19-cv-00265-A Document 25 Filed 06/15/20 Page 13 of 17 PagelDl402
party offers will be prejudicial to the opponent's
case, or the party would not offer it." Rather,
evidence is "unfairly prejudicial only when it tends to
have some adverse effect upon a defendant beyond
tending to prove the fact or issue that justifies its
admission into evidence." To exclude evidence under
rule 403, there must be a "clear disparity between the
degree of prejudice of the offered evidence and its
probative value." We balance (1) the probative value of
the evidence; (2) the potential to impress the jury in
some irrational, yet indelible, way; (3) the time
needed to develop the evidence; and (4) the proponent's
need for the evidence.
As (petitioner] observes, "this was a classic case
of he-said/she-said"—A.S. accused [petitioner] of
inserting his finger into her vagina, and (petitioner]
denied doing so—and A.S.'s testimony was the only
direct evidence of [petitioner]'s guilt. The State
therefore elicited testimony from both the detective
who interviewed (petitioner] and a director from
Alliance for Children that [petitioner] had groomed
A.S. by engaging her in numerous activities that ranged
from wrestling, tickling, and playing the "Boob" game
to introducing sex toys, observing A.S. and C.S. wash
their'private areas, and shaving both A.S.'s and C.S.'s
pubic areas. As the detective explained, and as the
progression of activities implies, grooming "is where
you take innocent touches and they become more sexual,
testing the boundaries of the child, and also
desensitizing the child for greater access . . . , to
where they can go further each time." The grooming
evidence that [petitioner] shaved C.S.-probative of
[petitioner]'s relationship with A.S., his state of
mind, or even a plan—consequently functioned to
discredit [petitioner]'s credibility and testimony
while circumstantially reinforcing A.S.'s. The
probative value of the evidence was high, and the
State's need for it was substantial.
As for the other factors, the time needed to
develop the evidence was minimal, and although the jury
may have considered the evidence distasteful,‘it was
not of the type that has the tendency to suggest a
decision on an improper basis.
The probative value of the evidence that
[petitioner] shaved C.S. far outweighed any potential

13

Case 4:19-cv-00265-A Document 25 Filed 06/15/20 Page 14 of 17 PagelD 1403
danger of unfair prejudice. The trial court did not
abuse its discretion by overruling [petitioner]'s rule
403 objection.
(Mem. Op. 4-6, doc. 14-3 (citations and footnotes omitted).)
A- state court's evidentiary rulings are not inherently
suspect and are generally not cognizable on federal habeas review
of a state conviction. See Estelle v. McGuire, 502, U.S. 62, 67
(1991); Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007);
Derden v. McNeel, 978 F.2d 1453, 1458 (5th Cir. 1983). A state
court's evidentiary rulings justify the granting of habeas relief
only if they violate a specific constitutional right or render
the trial fundamentally unfair. Johnson v. Puckett, 176 F.3d 809,
820 (5th Cir. 1999). Even if an evidentiary ruling is found to be
a constitutional violation, the petitioner must show actual
prejudice-i.e., that the trial error had a "substantial and
injurious effect or influence in determining the jury's verdict."
Brecht v. Abrahamson, 507 U.S. 619, 637 (1993)

(internal

quotation marks and citation omitted). In determining whether an
erroneous evidentiary ruling had a substantial and injurious
effect on the jury verdict, we consider the following: (1) the
importance of the witness's testimony; (2) whether the testimony
was cumulative; (3) whether there was evidence corroborating or
contradicting the testimony; and (4) the overall strength of the
prosecution's case. Cupit v. Whitley, 28 F.3d 532, 539 (5th Cir.
1994).

14

Case 4:19-cv-00265-A Document 25 Filed 06/15/20 Page 15 of 17 PagelD 1404
The record shows that C.S.'s testimony was relevant to the
issue of grooming and important to the state as corroboration of
A.S.'s testimony regarding the incident. Furthermore, assuming
the jury believed A.S., the prosecution's case was strong
notwithstanding C.S.'s testimony. Petitioner has not shown that
the testimony has a substantial or injurious effect or influence
on the verdict.
Under ground 4(c), petitioner claims his trial counsel was
ineffective by failing to object or request a limiting
instruction or mistrial to the prosecutor's highly improper and
prejudicial closing arguments at both trial and sentencing. (Pet.
15, doc. 1.) To succeed on a claim of ineffective assistance of
appellate counsel, a petitioner must show that his counsel's
performance was deficient and prejudicial. Smith v. Robbins, 528
U.S. 259, 285 (2000). To demonstrate prejudice the petitioner
must establish a reasonable probability that, but for his
counsel's deficient representation, the result of his trial would
have been different. Strickland v. Washington, 466 U.S. 668, 688
(1984) .
In petitioner's state habeas application, he merely alleged
that "counsel failed to object to prosecutors prejudicial
comments during closing arguements [sic]." (SHR 23, doc. 14-20.)
The state court determined that the claim was conclusory and did
not entitle petitioner to relief under the Strickland standard
15

Case 4:l9-cv-00265-A Document 25 Filed 06/15/20 Page 16 of 17 i PagelD 1405
f

v,'?*

because petitioner failed to "explain what prejudicial comments
were made, how the comments prejudiced him, and why his counsel
•

*.

i

.

,

\

erred by not objecting to the comments." (Id. at 74-75.)
i

The state court's determination of the claim,is not

objectively unreasonable. Although petitioner takes the
■'/ s'

''

f, s

/

additional step of directing this court to/various pages in
-f ’

volumes 4 and 5 of the reporter's record in*supporf pf the-*claim,
/

he provides no further factual or legal development... (SHR 23,
doc. 14-20). The law is clear, conclusory allegations of
ineffective assistance of counsel do not raise a constitutional
issue in a federal habeas proceeding. Miller v. Johnson, 200 F.3d
274, 282 (5th Cir. 2000); Green v. Johnson, 160 F,3d 1029, 1042
(5th Cir. 1998).
VI. CONCLUSION
For the reasons discussed herein,
The court ORDERS that petitioner's petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254 be, and is hereby,
dismissed as to grounds 1(a), 1(d)-(f), 2(a)-(b), 2(d)-(h), 3(b)(d), 3(e), in part, 3(f), 4(a)-(b), and 4(d)-(e) for failure to
exhaust state court remedies; dismissed as to grounds 1(b), 2(c),
3(a), and 3(e), in part, as procedurally barred; and denied as to
grounds 1(c) and 4(c). The court further ORDERS that a
certificate of appealability be, and is hereby, denied, as
petitioner has not made a showing that reasonable jurists would
16

Case 4:19-cv-00265-A Document 26 Filed 06/15/20

Page 1 of 1 PagelD 1407
"

us. district court

NOUTMHKN DISTRICT OF TBXA.S

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
JAYSON NEIL SPARKS,

VS.

i

LORIE DAVIS, Director,
Texas Department of Criminal,
Justice, Correctional
Institutions Division,
Respondent.

w*-» •

w

JUN 1 5 2020 J

i

§
§
§
§
§
§
§
§
§
§
§
§

Petitioner,

F1I.RD

ML---

l^vw*'**

No. 4:19-CV-265-A

FINAL JUDGMENT
In accordance with the opinion signed by the court on even
date herewith,
The court ORDERS, ADJUDGES,

and DECREES that the petition

pursuant to 28 U.S.C. § 2254 filed by Jayson Neil Sparks in the
above-captioned action be, and is hereby, dismissed as to grounds
1(a), 1(d)-(f), 2(a)—(b), 2(d)-(h), 3(b)-(d), 3(e), in part, 3(f),
4(a)-(b), and 4(d)-(e) for failure to exhaust state court remedies;
dismissed as to grounds 1(b), 2(c), 3(a), and 3(e), in part, as
procedurally barred; and denied as to grounds 1(c) and 4(c).
SIGNED June

, 2020.

JOhfa MCBRYDE

//

u/lTED STATES DISTRICT JUDGE

Case: 20-10667

Document: 00515798839

Page: 1

Date Filed: 03/29/2021

#

#

iHuiteti States! Court of appeals!
for tfje Jftftf) Circuit
No. 20-10667

Jayson Neil Sparks,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CV-265

Before Willett, Ho, and Duncan, Circuit Judges.
Per Curiam:
A member of this panel previously DENIED appellant’s motion for
a certificate of appealability. The panel has considered appellant’s motion
for reconsideration.
IT IS ORDERED that the motion is DENIED.

